           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE ACCURACY OF THE GARNISHMENT OF
        TITLE II BENEFITS BY THE
   SOCIAL SECURITY ADMINISTRATION’S
 COURT ORDERED GARNISHMENT SYSTEM

      July 2012   A-15-10-21063




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   July 19, 2012                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Accuracy of the Garnishment of Title II Benefits by the Social Security
        Administration’s Court Ordered Garnishment System (A-15-10-21063)


        OBJECTIVE
        Our objective was determine the status of the corrective actions the Social Security
        Administration (SSA) took to address the recommendations in our January 15, 2010
        report on The Accuracy of the Garnishment of Title II Benefits by the Social Security
        Administration’s Court Ordered Garnishment System (A-15-09-19063). We also
        determined whether SSA (1) accurately calculated the allowable garnishment amounts
        and (2) properly documented new, amended, and terminated garnishment orders in a
        retrieval system for later access.

        BACKGROUND

        The Social Security Act

        The Social Security Act (Act) 1 protects a beneficiary’s right to receive Social Security
        benefits 2 directly and use them as he/she sees fit. Specifically, section 207 3 indicates,
        in part, that no moneys paid or payable under Title II of the Act “. . . shall be subject to
        execution, levy, attachment, garnishment, or other legal process . . .” except by a
        provision of law that “. . . does so by express reference to this section.” Section 459(a) 4
        contains a specific exception to section 207. Pursuant to section 459(a), 5 Title II

        1
         Social Security Act § 207, 42 U.S.C. § 407 (applicable to Title XVI benefits pursuant to section
        1631(d)(1) of the Act, 42 U.S.C. § 1383(d)(1)).
        2
         Social Security benefits include Old-Age, Survivors and Disability Insurance established under Title II
        and Supplemental Security Income established under Title XVI of the Social Security Act.
        3
            Social Security Act § 207, 42 U.S.C. § 407.
        4
            Social Security Act § 459(a), 42 U.S.C. § 659(a).
        5
            Id.
Page 2 - The Commissioner


benefits are subject to legal process 6 brought by a State agency or individual obligee to
enforce a Title II beneficiary’s legal obligation to provide child support 7 and/or make
alimony 8 payments. Title XVI payments are not subject to levies or garnishment. In
Fiscal Years (FY) 2009 and 2010, SSA made approximately 625.5 and 644.9 million
Title II benefit payments, respectively. Of the 625.5 and 644.9 million benefit payments,
SSA garnished approximately 3.4 and 4 million (less than 1 percent), totaling
$554.1 and $683.1 million, respectively.

Social Security Administration Garnishes Title II Benefits

Once SSA receives a garnishment order, its overall responsibility for processing that
order is as follows. 9

1. Review garnishment orders to determine whether to honor or reject 10 them.
2. Notify the involved parties of SSA’s determination.
3. Make necessary adjustments to its records.
4. Issue payments timely.

Before the Court Ordered Garnishment System

Before the Court Ordered Garnishment System (COGS) was implemented in
March 2006, SSA established a garnishment policy to have a court order served at the
local field office (FO) forwarded to the jurisdictional processing center (PC) 11 for manual
processing. However, because there was no uniform method in the policy’s application,

6
 POMS, GN 02410.001 B.4. (07/27/2006), defines garnishment as a type of legal process by which
benefits are taken to pay a beneficiary’s child support and/or alimony obligation to a third party.
7
 POMS, GN 02410.200 D. (2/27/2006), defines child support as periodic payment of funds for the
support and maintenance of a child (ren) subject to, and in accordance with, State or local law.
8
  POMS, GN 02410.200 E. (2/27/2006), defines alimony as periodic payment of funds for the support and
maintenance of a spouse or former spouse subject to and in accordance with State or local law. It
includes, but is not limited to, separate maintenance and spousal support.
9
  POMS, GN 02410.210 (04/20/2011), indicates garnishment orders are reviewed to determine, among
other things, whether to honor or reject them, and if the order does not provide the full name and SSN of
the beneficiary to be garnished or the SSN cannot be obtained from the ALPHIDENT, notify the party who
caused the order to be served or the party's representative, that the order will not be honored unless
adequate identifying information is supplied.
10
  POMS, GN 02410.205 B. (01/20/2010), indicates that SSA would return a garnishment order to the
court if it is delivered by a method not in accordance with the law of the State in which it is issued and
would return the order to the issuing entity if the order specifically names someone other than SSA (for
example, General Electric) as the “garnishee,” “employer,” “income payer”, etc.
11
  POMS GN 02410.205 A (01/20/2010), refers to PC as a program center. POMS GN 02410.210 A
(04/20/2011) refers to PC as a processing center. Although the two are interchangeably used, for our
report purpose we refer to a processing center.
Page 3 - The Commissioner


each PC had a different way of controlling garnishment cases based on the volume of
garnishments received. This garnishment process had the following limitations.

•     PCs manually processed garnishment adjustments of Title II benefits.
•     No distinct data were on the Master Beneficiary Record (MBR).
•     Local programs controlled the repetitive payments.
•     Notices were a manual process.

As a result of these limitations, COGS was developed.

The Court Ordered Garnishment System

Overview

COGS is a national system that automates withholding from beneficiaries in compliance
with State- or court-ordered garnishment requests. COGS automated many of the
manual tasks that were involved for the PCs, such as tracking payments and court
orders; deducting the garnishment from the beneficiary’s payment; issuing the payment
to the court, child support agency, or ex-spouse; and sending the appropriate notice.
COGS adjusts Title II benefits, issues payments to the appropriate payee as designated
in the garnishment order, and issues appropriate notices to the garnished beneficiary
and court. 12

Court Ordered Garnishment System Process

The manager (or designated representative) of any FO or PC can be served with legal
process to enforce a legal obligation to provide child support and/or make alimony
payments. 13 Processing garnishment orders is primarily the responsibility of the FOs,
while the PCs process garnishment orders served directly to them. 14

The beneficiary’s ZIP code determines where the garnishment is established. Once
SSA receives a court order, a designated employee in the FO or PC inputs the
garnishment order into COGS. There is no requirement for a second, independent
review of the information input into COGS. Within 15 days of processing a garnishment
order, COGS automatically sends the appropriate garnishment notices to the



12
     SSA’s Modernized Systems Operations Manual - SPECPAYSYS 003.001.
13
     42 U.S.C. §§ 659(b) & (c); and SSA, POMS, GN 02410.205 A (01/20/2010).
14
  POMS, GN 02410.210 A. (04/20/2011), provides, in part, that processing garnishment orders is the
primary responsibility of the FO. PCs process garnishment orders served directly to them and process
COGS-related alerts and exceptions. If the order is served to an FO or PC other than the servicing FO or
PC, the POMS instructs that the order not be forwarded to the servicing office.
Page 4 - The Commissioner


beneficiary/payee and the court/agency. After an employee inputs the court-ordered
garnishment into COGS, they fax the document into a document retrieval system and
destroy the original.

SSA’s ORSIS maintains COGS software through all stages of its life cycle: analysis,
requirements, design, development, testing and validation, and implementation and
maintenance. Specifically, the Manual Analysis Branch (MAB) is responsible for
analysis, requirement, procedure and validation of garnishments. MAB compiles all
court-ordered garnishment inputs into reporting spreadsheets, which staff forwards to
the Payment Certification Branch (PCB) for payment certification. Once payments are
certified, SSA transmits the pertinent data to the Department of the Treasury (Treasury)
to ensure accurate and timely issuance of garnishment benefit payments.

Conversion from Prior Garnishment System to the Court Ordered Garnishment
System

On March 6, 2006, SSA converted approximately 180,000 beneficiaries with
garnishments from the manual garnishment system to the automated COGS. These
converted cases had a default start date in COGS of March 6, 2006. The garnishment
amounts included in COGS were the previous amounts in the manual garnishment
system. SSA did not recalculate these garnishments.

The beneficiaries with garnishments converted to COGS received a notice dated
March 14, 2006, informing them about their garnishment liability, the amount SSA
withheld for garnishment, and the monthly payment amount they will receive.

Prior Audit Results

In the January 2010 audit, 15 we identified instances where SSA withheld incorrect
garnishment amounts. Specifically, we found that 5 (8 percent) of 65 cases resulted in
incorrect amounts being withheld. Also, SSA did not maintain the court orders in
14 (22 percent) of 65 cases. Therefore, we recommended that SSA:

1. Ensure the five garnishments in the report were corrected.
2. Remind staff to follow existing policies and procedures that require all new,
   amended, and terminated garnishment orders to be faxed into the document
   retrieval system for later access.

Based on the results of our limited sampling in the 2010 audit, we expanded our sample
review of the court-ordered garnishments for this audit. We took our expanded sample
from a data extract from one segment of the Master Beneficiary Record (MBR) for the
period October 1, 2008 through September 30, 2009.


15
 SSA OIG, The Accuracy of the Garnishment of Title II Benefits by the Social Security Administration’s
Court Ordered Garnishment System (A-15-09-19063), January 15, 2010.
Page 5 - The Commissioner


RESULTS OF REVIEW
SSA had taken corrective action to address the two recommendations in our prior
report, as follows.

Recommendation 1 – Ensure the five garnishments in this report were corrected.

      SSA reviewed the incorrect cases and made corrections.

Recommendation 2 – Remind staff to follow existing policies and procedures that
require all new, amended, and terminated garnishment orders to be faxed into the
document retrieval system for later access.

      The Agency sent out an Administrative Message (AM) 16 reminding staff about the
      policy and procedures to follow when processing incoming garnishment orders.

We identified two sampling populations for this audit. We selected 258 beneficiaries
with court-ordered garnishments from these 2 sampling populations.

•     Our first sampling population comprised 14,154 beneficiaries with a garnishment
      action(s) on their records. We randomly selected 250 beneficiaries from the total
      population.
•     Our second sampling population comprised eight beneficiaries. Beneficiaries had a
      garnishment action(s), as well as, an additional garnishment action(s) for a
      dependent (that is, spouse or child) on their records. For example, a parent and an
      adult child each had garnishment actions against them and were on the same
      record. We examined all eight beneficiaries.

Using the sample results for this audit, we found 13 instances where SSA incorrectly
withheld garnishment amounts. Additionally, we had similar findings to the first audit
where SSA did not maintain the court orders for 56 beneficiaries. To determine whether
SSA accurately calculated the allowable garnishment amounts and properly
documented new, amended, and terminated garnishment orders in a retrieval system
for later access, we reviewed 258 beneficiaries associated with 1 or more garnishment
actions. 17 A summary of our results follows.




16
     Policy Instruction AM-10188 SEN dated November 30, 2010.
17
   We took our sample from one segment (segment 5) of the MBR for the period October 1, 2008 through
September 30, 2009. From this segment, we identified 14,154 beneficiaries with child support and
alimony garnishment actions in the sample population. The findings in our sample are related to child
support and alimony cases, which are processed by the FOs.
Page 6 - The Commissioner

                                      Table 1 – Audit Results
                             Description                           Number of Beneficiaries
       Accurately Calculated Garnishment Court Orders                                       189
                                                             18
       Inaccurately Calculated Garnishment Court Orders                                      13
       Subtotal - Reviewed Garnishment Court Orders                                         202
                                                        19
       Missing/Destroyed Garnishment Court Orders                                            56
       Total                                                                                258

We determined that the Agency had maintained the garnishment court orders for
202 (78 percent) of 258 beneficiaries. However, we found that the Agency did not
maintain the garnishment court orders for 56 (22 percent) of 258 beneficiaries. In
addition, we found that the Agency incorrectly calculated 13 (6 percent) of the
202 reviewed beneficiaries’ amounts being withheld.

Inaccurate Garnishment Amounts

In reviewing the garnishment orders, we determined whether the COGS amount
withheld was in accordance with the court order and applicable State/Federal laws. We
found that each State had unique guidelines on how the State maximum garnishment
amount was calculated. The maximum garnishment amount is based on the
beneficiary’s State of residence. The court-ordered garnishment can be greater than
the Title II amount, but COGS will determine the lesser of the Federal or State
maximum and the amount that SSA should withhold. The Federal maximum
withholdings 20 are as follows:

•    50 percent of disposable income if supporting a second family, 21 with no arrears or
     less than 12 weeks in arrears;
•    55 percent of disposable income if supporting a second family and owes more than
     12 weeks in arrears;
•    60 percent of disposable income if single, with no arrears or less than 12 weeks in
     arrears; and
•    65 percent of disposable income if single and is more than 12 weeks in arrears.

18
  One beneficiary is part of the second sampling population. We reviewed 100 percent of the second
population; therefore, we will exclude this court order exception in our projection of inaccurately
calculated garnishment payments (see Appendix C).
19
 SSA did not maintain 56 of the 258 court orders. We determined that 55 court orders were missing and
SSA destroyed the paper folder for 1 court order.
20
 Administration for Children and Families Basic Guidelines for Federal Agencies on Child Support
Withholding: http://www.acf.hhs.gov/programs/cse/newhire/employer/publication/opm_iw_guidance.htm.
21
  A second family means there are other dependents, a spouse and/or child, for which the employee-
parent has responsibility.
Page 7 - The Commissioner


Based on our audit, we believe the Agency incorrectly calculated the amounts being
withheld for 13 (6 percent) of 202 beneficiaries. These 13 beneficiaries had 1 or more
garnishment actions that were associated with child support or alimony garnishments.

October 1, 2008 to September 30, 2009

Our audit period was October 1, 2008 through September 30, 2009. During this period,
we noted 12 beneficiaries 22 totaling $6,258 in overpayments and $10,001 in
underpayments that had incorrectly calculated amounts withheld for 1 segment. Using
the absolute value of $16,259, we determined a point estimate of $920,569 for one
segment. Based on that point estimate, we estimate approximately $18.4 million in
inaccurate garnishment payments for all 20 segments. For further detail, refer to
Appendix C.

October 1, 2008 to December 31, 2011

The incorrectly calculated cases in Table 2 were calculated using a 39-month period
from October 1, 2008 through December 31, 2011 or until the garnishment order was
terminated. We extended the review period to December 31, 2011 to determine
whether the incorrect amounts were still being deducted from the beneficiaries’ benefits.
The extension of the review period was for the incorrectly calculated amounts and was
not projected to our sample. The totals rounded to the nearest $1.

As a result, we identified a $17,808 overpayment and a $32,402 underpayment in
garnishment payments in our sample as follows:

                 Table 2 – Summary of Underpayments and Overpayments
Sample        Number of      Overpayment    Underpayment             Reference
              Exceptions     to Recipient    to Recipient
Sample 1          12                 $9,958        $32,402 Refer to Table 3 for details
Sample 2           1                  7,850               0 Refer to Table 4 for details
     Total         13                     $17,808              $32,402

In these cases, “overpayment” means the beneficiary was underpaid their Title II
benefits, and the court-order recipient (that is, a child or spouse) was overpaid by the
same amount. In addition, “underpayment” means the beneficiary was overpaid their
Title II benefits, and the court-order recipient (that is, a child or spouse) was underpaid
by the same amount. In other words, the under- or overpayment of the beneficiary’s
Title II benefits has the opposite effect on the court-ordered payment. See Appendix E
for narrative on these garnishment cases.




22
  We reviewed all eight beneficiaries from the second sample population and found one inaccurately
calculated payment for $7,850. Therefore, we will exclude this court order exception in our projection of
inaccurately calculated garnishment payments and table.
   Page 8 - The Commissioner


                 Table 3 – Summary of Sample 1 Underpayments and Overpayments
   Case Number           Benefit    Garnishment Garnishment Overpayment Underpayment
                       Amount Paid   Allowable     Amount Paid to Recipient 24 to Recipient
                       During Audit   Amount       During Audit
                                23
                        Review      During Audit     Review
                                      Review
            7               $44,997       $24,570         $1,267            $0       $23,303
           26                39,738              0            84            84              0
           54                49,308        19,578         17,628              0        1,950
           88                47,281        11,478         11,401              0           77
           98                16,668              0         3,750         3,750              0
          111                39,900         7,421          5,199              0        2,222
          116                35,977         4,154          4,017              0          137
          127                13,935         9,058          4,368              0        4,690
          141                10,546            72             98            26              0
          151                57,210         5,512          8,468         2,956              0
          237                34,370         3,481          6,623         3,142              0
          248                32,739         7,862          7,839              0           23
Total – 1st Sample          $422,669           $93,186           $70,742             $9,958             $32,402
Note: We calculated the amounts listed in the table using a 39-month period from October 1, 2008 through
December 31, 2011 or until the garnishment order was terminated.


                 Table 4 – Summary of Sample 2 Underpayments and Overpayments
   Case Number           Benefit    Garnishment Garnishment Overpayment Underpayment
                       Amount Paid   Allowable    Amount Paid   to Recipient  to Recipient
                       During Audit   Amount      During Audit
                        Review 25   During Audit    Review
                                      Review
            6               $13,711        $6,856       $14,706        $7,850            $0
Total – 2nd Sample            $13,711           $6,856           $14,706              $7,850                 $0
Note: We calculated the amounts listed in the table using a 39-month period from October 1, 2008 through
December 31, 2011 or until the garnishment order was terminated.


   We found that SSA received the garnishment court orders for 10 beneficiaries (case
   numbers 6, 7, 26, 88, 98, 111, 116, 127, 141, and 248) before March 6, 2006
   (conversion date to COGS). Therefore, the garnishment amounts included in COGS
   were the previous amounts included in the manual garnishment system. SSA did not
   23
        The benefit amount paid is the monthly benefit payment minus any Medicare payments.
   24
     Case Number 98 is for alimony support; therefore, a recipient can be a child or spouse receiving
   payments.
   25
        The benefit amount paid is the monthly benefit payment minus any Medicare payments.
Page 9 - The Commissioner


recalculate these garnishments since many of these cases were old and SSA did not
maintain the court orders. Had SSA recalculated these garnishments at the conversion
to COGS, SSA could have avoided $11,710 in overpayments and $30,452 in
underpayments.

Missing Garnishment Court Orders

In reviewing the garnishment orders, we found that the Agency did not maintain
56 (22 percent) of 258 beneficiaries’ court orders. Therefore, we were unable to verify
the accuracy of these garnishment amounts.

These missing court orders are the result of several Agency changes to the POMS 26 on
maintaining the garnishment court orders. Before establishing COGS on
March 6, 2006, SSA required that PCs maintain the court orders while FOs only
maintained a manual log of the court orders. Our audit found that 28 (49 percent) 27 of
the 57 beneficiaries’ missing garnishment orders were established before COGS.

After March 6, 2006, the court orders were to be faxed to the PCs. 28 During our audit
period, SSA policy 29 directed that the entire garnishment court order be faxed into a
document retrieval system (such as the Electronic Disability claim filing record or
Non-Disability Repository Evidentiary Document), stored in the office for 120 days, and
destroyed after 120 days. Our audit found that 29 (51 percent) of the 57 beneficiaries’
missing garnishment orders were established after COGS was established. Therefore,
the FOs and PCs should have faxed the entire garnishment court order into a document
retrieval system in accordance with POMS. The lack of supporting documentation may
result in improper garnishment of Title II benefits.

The Agency recently sent out reminders on maintaining the garnishment court orders.
For example, the Agency sent out an AM 30 reminding staff about the policy and
procedures for processing incoming garnishment orders on November 30, 2010. In
addition, the Agency made the Garnishment Processing Video on Demand available on
May 12, 2011. The purpose of this broadcast was to remind technicians of the proper

26
  POMS, GN 02410.210 (04/20/2011) sets forth SSA policy for processing garnishment orders in the FO
or PC.
27
  Case Number 147 has one garnishment court order established before March 6, 2006 and another one
established after March 6, 2006. Therefore, it is included in the before and after COGS totals and
increases the beneficiaries to 57 for this part of the review only.
28
   POMS, GN 02410.210 A.6. (effective from May 19, 2006 to December 20, 2007), provided that, after
the FO completes the COGS input, the FO should complete a fax cover form and fax it along with a copy
of the entire garnishment order for PRONGFILE-NO ACTION NECESSARY into the paperless fax
number of the jurisdictional Processing Center.
29
  POMS, GN 02410.210 A.6. Effective October 28, 2009, POMS was revised to remove the 120 days
retention requirement; however, for our audit timeframe this requirement was still applicable.
30
     Policy Instruction AM-10188 SEN dated November 30, 2010.
Page 10 - The Commissioner


policies and procedures to follow when processing incoming garnishment orders in the
field offices and processing centers. The broadcast included general reminders for
processing various garnishment actions in SSA's COGS as well as important rules to
follow when routing and reviewing incoming orders (for example, a reminder to FAX the
court order into the document retrieval system).

The Agency sent these reminders after we started our audit. Our audit period was
October 1, 2008 through September 30, 2009. Therefore, the Agency has taken
corrective action to ensure that staff FAX all new, amended, and terminated
garnishment orders into the document retrieval system for later access.

Administrative Fees Associated with Garnishment Payments

While determining whether SSA accurately calculated the allowable garnishment
amounts and properly documented new, amended, and terminated garnishment orders
in a retrieval system for later access, we found that several court orders permitted an
administrative fee to process garnishment payments. Therefore, SSA may be entitled
to charge an administrative fee to process garnishment payments.

We reviewed laws related to withholding support. Specifically, Social Security Act,
§ 466, 31 provides for fees to be charged in certain instances when child support or
alimony is being withheld from amounts otherwise owed to non-custodial parents. The
Social Security Act provision defining child support essentially provides, in part, that
such support “means amounts required to be paid under a judgment, decree or
order . . . and which may include other related costs and fees . . . .” 32

The Administration for Children and Families (ACF) Basic Guidelines for Federal
Agencies on Child Support Withholding states, 33 “. . . follow the law of the employee's
principal place of employment (State of official duty station) for Employer's
administrative fee.” The ACF guidelines show what each State may charge for an
administrative fee. The fees vary among the States. See Appendix C for the
administrative fees charged per State.

Although the law does not directly state that SSA is an employer and can charge a fee,
SSA should determine whether it has a legal basis for charging an administrative fee to
process a court-ordered garnishment payment. If SSA has the legal authority, it should
develop an administrative garnishment fee schedule in accordance with existing laws
and/or statues. If SSA determines it does not have the legal authority, then it should




31
     Social Security Act § 466(a)(3)(B) and (b)(6)(A)(i), 42 U.S.C. 666(a)(3)(B) and (b)(6)(A)(i).
32
     Social Security Act § 459(i)(2), 42 U.S.C. 659(i)(2).
33
   ACF Basic Guidelines for Federal Agencies on Child support Withholding
http://www.acf.hhs.gov/programs/cse/newhire/employer/publication/opm_iw_guidance.htm.
Page 11 - The Commissioner


seek the legal authority, to allow for collection of administrative garnishment fees to
recapture the full cost of SSA’s services to process a court-ordered garnishment
payment (that is, child support or alimony).

After our fieldwork, SSA determined it did not have the legal authority to collect
garnishment fees. Although the majority of the cases we reviewed were child support,
SSA stated,

          We conclude that SSA does not have authority to collect such fees.
          Section 207 of the Social Security Act generally prohibits garnishment of
          social security benefits. Although section 459 of the Act contains a narrow
          exception to this general rule for the purpose of enforcing child support
          obligations, we do not believe that SSA’s costs in processing garnishment
          orders fall within the definition of ‘other . . . costs and fees’ in section 459(i)(2),
          which defines child support.
          The regulation at 5 C.F.R. 581.307 provides guidance on the kinds of costs
          and fees that may be collected as part of a garnishment order. This regulation
          requires two things before a governmental entity can comply with legal
          process that seeks withholding for fees or costs: (1) the legal process must
          expressly provide for inclusion of the fee or cost as (rather than in addition to)
          child support or alimony; and (2) the award of fees or costs must be within the
          authority of the state court or state agency that issued the legal process. See
          5 C.F.R. 581.307(a)-(b). We are not aware of any authority permitting state
          courts or state agencies to order the Social Security Administration, a federal
          agency, to collect fees to defray the agency’s costs for processing
          garnishment orders. For this reason, too, we do not believe the agency may
          collect administrative fees from child support garnishees for the purpose of
          defraying the agency’s costs for processing garnishment orders.

Because of budget constraints and limited resources, SSA should seek legislative
authority to collect garnishment fees to offset the cost of processing garnishment
orders.

Estimate of Administrative Fees Associated with Garnishment Payments

We used the FY 2009 through 2011 actual Number of Payments (NoP) 34 to determine
what the Agency could have charged in administrative fees. To calculate each FY, we
multiplied the number of accurate garnishment payments in our sample by the State
administrative fee appropriate to where the beneficiary resides for each month. Next,
we totaled the administrative fees for the 12-month period for each sample item and
calculated an average administrative fee that SSA could charged each month. Finally,
we applied the annual average rate per month to the actual NoP made for each FY.
Therefore, we estimate the fees to be the following.




34
     SSA’s Annual Metric Report publishes the actual NoP (garnishments and State Disbursing Unit).
Page 12 - The Commissioner


                            Table 5 – Estimate of Administrative Fees
                FY          Actual NoP       Average Rate 35          Total
               2009          3,401,964             $2.61               $8,879,126
               2010          3,956,553             $2.93              $11,592,700
               2011          4,511,841             $3.15              $14,212,299
               Totals       11,870,358                                       $34,684,125

Based on our analysis, we believe SSA could have collected approximately
$34.7 million in administrative fees for the 3-year period reviewed.

Outstanding Agency Policy Concerns

During the audit, we identified (1) outstanding Agency policy concerns and (2) lack of
adherence to Agency policy.

During our review, we noted four cases with policy-related questions as follows.

•      In one case, the Agency received both the “original” and “amended” court order.
       Therefore, the potential exists for issuing duplicate garnishments with two different
       case numbers for the same court order if the Agency does not ensure a consistent
       method of identifying case numbers in COGS.
•      In one case, the Agency received multiple court orders with different criteria (for
       example, with and without arrears). Therefore, the potential exists to incorrectly
       calculate the garnishment amount if the Agency does not apply the correct maximum
       federal law garnishment percentage.
•      In two cases, the Agency received additional garnishment instructions in the court
       order (for example, withholding worksheets). Therefore, the potential exists to
       incorrectly calculate the garnishment amount if the Agency receives conflicting
       garnishment instructions in the court order.

Lack of Adherence to Agency Policy

According to POMS, GN 02410.210 A.3.a., 36 a garnishment order is reviewed to
determine whether it is clearly to enforce, modify, or terminate an obligation to pay child
support or alimony. If the order is not clear, staff is to immediately contact the
garnisher, the garnisher’s representative or the issuing court to get a certified copy of
the order. 37 In addition, if the date on the order is more than 1 year old, staff should


35
  We calculated the average rate by reviewing beneficiaries garnishment orders received in our sample
for FY 2009. This rate is continued for 2010 and 2011.
36
     POMS, GN 02410.210.A.3.a. (04/20/2011).
37
     Id.
Page 13 - The Commissioner


verify with the issuing entity that the order is still in effect. 38 During our review, we noted
three cases with the lack of adherence to this policy as follows.

•     In one case, the Agency received three court orders. Staff used only two
      garnishment orders to calculate the monthly payment. The latest garnishment order
      is more than 1 year old (dated July 2000) and was excluded from calculating the
      monthly payment. Therefore, the garnishment amount could be incorrectly
      calculated if the Agency does not verify the garnishment order with the issuing entity.
•     In one case, the Agency received multiple court orders; however, it appears that the
      Agency may have incorrectly modified the garnishment order due to an inputting
      error. Therefore, the potential exists to incorrectly calculate the garnishment amount
      if the Agency does not verify the garnishment order to modify an obligation.
•     In one case, the Agency received two garnishment orders from two different States
      for the same child. Therefore, the potential exists to duplicate the garnishment
      amount if the Agency does not review the garnishment orders (for example, monitor
      the child listed on the court order). If the garnishment order is not clear, the Agency
      should contact the court for verification.

We submitted these cases to SSA for further clarification. However, because of the
transition of staffing and absence of expertise, SSA did not provide the correct order of
action for the cases. We included these cases in the 189 accurately calculated
garnishment court orders. See appendix F for narrative on policy-related cases.

CONCLUSION AND RECOMMENDATIONS
We found that SSA took corrective actions to address the recommendations in our
January 15, 2010 report, The Accuracy of the Garnishment of Title II Benefits by the
Social Security Administration’s Court Ordered Garnishment System (A-15-09-19063))
and no further action is required on our two prior recommendations.

During our follow-up audit, we found the Agency incorrectly calculated garnishment
payments for 13 (6 percent) of 202 beneficiaries. In addition, SSA did not maintain
56 (22 percent) of 258 beneficiaries’ court orders. Therefore, SSA should:

1. Ensure staff reviews the 13 garnishments in this report totaling $17,808 in
   overpayments and $32,402 in underpayments.
2. Determine whether the seven policy-related cases need corrective action.
3. Consider seeking legislative authority to collect garnishment fees to offset the cost of
   processing garnishment orders.




38
     POMS GN 02410.210 A.3.c. (04/20/2011).
Page 14 - The Commissioner


AGENCY COMMENTS
The Agency agreed with our recommendations. Specific to Recommendation 3, the
Agency stated, “If Congress granted us legal authority to collect fees from processing
garnishments, we would incur costs associated with:

•   Implementing a new electronic system to collect these fees;
•   Drafting agreements with every State government and Federal territory to identify
    these payments; and
•   Creating a system of internal controls to inhibit improper payments.”

We agree with SSA that there would be implementation and system costs associated
with the collection of garnishment fees.

The Agency’s complete comments are included in Appendix G.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Projection of Inaccurately Calculated Garnishment Payments
APPENDIX D – Administrative Fees
APPENDIX E – Narrative for Garnishment Cases
APPENDIX F – Narrative for Policy-Related Cases
APPENDIX G – Agency Comments
APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act        Social Security Act
ACF        The Administration for Children and Families
COGS       Court Ordered Garnishment System
DCO        Deputy Commissioner for Operations
FO         Field Office
MAB        Manual Analysis Branch
MBR        Master Beneficiary Record
NOP        Number of Payments
OIG        Office of the Inspector General
ORSIS      Office of Retirement and Survivors Insurance Systems
PC         Processing Center
PCB        Payment Certification Branch
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable State/Federal laws and regulations, pertinent parts of the
    Social Security Administration’s (SSA) Program Operations Manual System, and
    other relevant criteria.

   Reviewed and obtained data from the Office of Benefit Accounting and Systems
    Analysis Website.

   Obtained a data extract from Segment 5 of SSA’s Master Beneficiary Record from
    October 1, 2008 through September 30, 2009. From this segment, we identified
    14,162 beneficiaries with garnishments as the sample population. We identified two
    sampling populations.

   Selected 258 beneficiaries with court-order garnishments from these 2 sampling
    populations.

          First sampling population – 14,154 Beneficiaries: We randomly selected
           250 of 14,154 beneficiaries. As a result, there were 307 garnishments
           associated with these 250 beneficiaries.
          Second sampling population – 8 Beneficiaries: We reviewed all
           25 court-order garnishments related to these eight beneficiaries. Each
           beneficiary had multiple dependents (that is, spouse or child) listed on their
           record with a garnishment action(s). For example, a parent and an adult child
           each have garnishment actions against them and are on the same record.

   Obtained the court-order garnishments for the two sample groups.

   Obtained Court Ordered Garnishment System (COGS) data.

   Compared and recalculated court-order garnishment amounts to the COGS data to
    determine accuracy.

   Reviewed and calculated administrative fees associated with garnishment payments
    using The Administration for Children and Families Basic Guidelines for Federal
    Agencies on Child support Withholding.

   Obtained data from RATS STATS statistical software to report projections.




                                           B-1
We performed our audit at SSA Headquarters from March 2010 through January 2012.
We found the data used for this audit were sufficiently reliable to meet our objectives.
The entities audited were the Offices of Retirement and Survivors Insurance Systems
and Public Services and Operations Support.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                           B-2
                                                                   Appendix C

Projection of Inaccurately Calculated
Garnishment Payments
Projection of Inaccurately Calculated Garnishment Payments

Our audit period is October 1, 2008 through September 30, 2009. During this period,
we developed attribute and variable projections based on the 12 beneficiaries with
inaccurate garnishment payments in the first sample population. We reviewed all eight
beneficiaries from the second sample population and found one inaccurately calculated
payment for $7,850. We excluded this from the projection table. The following table
provides the details of our sample results and statistical projections.

         Table 1 - Projection of Inaccurate Garnishment Payments

    Sample Results and Attribute Projections for Beneficiaries Whose
          Garnishment Payments Were Inaccurately Calculated
                    Attribute Projection
Population Size                                                    14,154
Sample Size                                                           250
Number of Beneficiaries’ Inaccurate Garnishment Payments               12
Projected Quantity in Universe                                        679
Lower Limit                                                           398
Upper Limit                                                         1,080
                     Variable Projection
Dollar Amount of Incorrect Garnishment Payments                    16,260
Point Estimate                                                    920,569
Lower Limit                                                       132,392
Upper Limit                                                     1,708,747
Note: Projections are at the 90-percent confidence level.

As shown above, we noted 12 beneficiaries who had incorrectly calculated amounts
withheld for 1 segment. Based on our point estimate of $920,569 for one segment, we
estimate $18,411,380 in inaccurate garnishment payments for all 20 segments.
                                                                                   Appendix D

Administrative Fees                       1


       State         Description of the Administrative Fee                  1st      Additional
                                    Process                                Month      Months
Alabama                              $2 per month                           2.00        2.00
Alaska                              $5 per payment                          5.00        5.00
Arizona          $1 per payment or $4 per month whichever is greater        4.00        4.00
Arkansas                          $2.50 per payment                         2.50        2.50
California                        $1.50 per payment                         1.50        1.50

Colorado         $5 per month (from remainder of employee's income          5.00        5.00
                          after deductions and withholding)
Connecticut              No provision for Administrative fees                0           0
Delaware                  No provision for Administrative fees               0           0
District of                 $2 per deduction per pay period                 2.00        2.00
Columbia
Florida              $5 for 1st payment $2 per payment thereafter           5.00        2.00
Georgia           Up to $25 against the obligor’s income to reimburse,     25.00        3.00
                 the payor for administration costs for the first income
                 deduction pursuant to an income deduction order and
                       up to $3.00 thereafter each pay deduction.
Guam                                 No fee allowed                          0           0
Hawaii                              $2 per payment                          2.00        2.00
Idaho                               $5 per payment                          5.00        5.00
Illinois                             $5 per month                           5.00        5.00
Indiana                             $2 per payment                          2.00        2.00
Iowa                                $2 per payment                          2.00        2.00
Kansas               Lesser of $5 per pay period or $10 per month           5.00        5.00
Kentucky                            $1 per payment                          1.00        1.00
Louisiana                          $5 per pay period                        5.00        5.00
Maine                             $2 per pay payment                        2.00        2.00
Maryland                 Administrative fee of $2 per payment               2.00        2.00
Massachusetts            Administrative fee of $1 per payment               1.00        1.00
Michigan                  No provision for Administrative fees               -           -
Minnesota                           $1 per payment                          1.00        1.00
Mississippi       $2 per payment plus $5 to be withheld each month          2.00        2.00
                  for Department of Human Services (the monthly $5
                      may be sent in with the withheld obligation)




1
 Administration for Children & Families Basic Guidelines for Federal Agencies on Child Support
Withholding http://www.acf.hhs.gov/programs/cse/newhire/employer/publication/opm_iw_guidance.htm.


                                                  D-1
        State       Description of the Administrative Fee               1st    Additional
                                   Process                             Month    Months
Missouri                            $6 per month                        6.00      6.00
Montana                             $5 per month                        5.00      5.00
Nebraska                          $2.50 per month                       2.50      2.50
Nevada           $3 per payments. Employer also required to collect     2.00      2.00
                   $2 per payment (maximum $4 per month) to be
                  sent to State Treasurer no less than quarterly per
                 Nevada Revised Statutes 31A.080(3); $2 fee to be
                     deducted from the income due obligor after
                             withholding of child support
New Hampshire                      $1 per payment                       1.00      1.00
New Jersey                        $1 per payment                        1.00      1.00
New Mexico                        $1 per payment                        1.00      1.00
New York                No provision for Administrative fees             0         0
North Carolina                    $2 per payment                        2.00      2.00
North Dakota                        $3 per month                        3.00      3.00
Ohio               $2 or up to 1 percent of payment, whichever is       2.00      2.00
                                        greater
Oklahoma         Administrative fee of $5 per payment up to $10 per     5.00      5.00
                                        month
Oregon                         $5 per order per month.                  5.00      5.00
Pennsylvania         Administrative fee of 2 percent of payment         1.00      1.00
Puerto Rico                       $1 per payment                        1.00      1.00
Rhode Island                      $2 per payment                        2.00      2.00
South Carolina                    $3 per payment                        3.00      3.00
South Dakota                        $3 per month                        3.00      3.00
Tennessee         Up to 5 percent of payment not to exceed $5 per       5.00      5.00
                                       month
Texas                              $10 per month                       10.00     10.00
Utah             One-time fee of $25 (may be charged all at once,       2.00      2.00
                           or over several pay periods)
Vermont                           $5 per month                          5.00      5.00
Virginia                          $5 per payment                        5.00      5.00
Virgin Islands                        up to $1                          1.00      1.00
Washington              $10 for 1st payment; $1 for all others         10.00      1.00
West Virginia                     $1 per payment                        1.00      1.00
Wisconsin                Actual cost up to $3 per payment               3.00      3.00
Wyoming                           $5 per payment                        5.00      5.00




                                                 D-2
                                                                                   Appendix E

Narrative for Garnishment Cases1
Case Number 6

The beneficiary resides in Michigan, which follows the State law maximum of 50 percent
for garnishments. Conversely, the Court Ordered Garnishment System (COGS) has
been deducting the maximum of 65 percent from the beneficiary’s monthly benefit
payment. Therefore, we estimate the court-ordered amount at $6,855.50:

                                         Allowable         COGS
                       Month              Amount          Amount        Overpayment
                October 2008                 $90.00         $117.00            $27.00
                November 2008                 90.00          117.00             27.00
                December 2008                 95.50          124.20             28.70
                January 2009                  95.50          124.20             28.70
                February 2009                 95.50          124.20             28.70
                March 2009                    95.50          124.20             28.70
                April 2009                   190.50          247.70             57.20
                May 2009                      90.50          327.70            137.20
                June 2009                    190.50          659.90            469.40
                July 2009                    190.50        6,006.90          5,816.40
                August 2009                  190.50          247.70             57.20
                September 2009               190.50          247.70             57.20
                October 2009                 190.50          247.70             57.20
                November 2009                 90.50          247.70             57.20
                December 2009                190.50          247.70             57.20
                January 2010                 190.50          247.70             57.20
                February 2010                190.50          247.70             57.20
                March 2010                   190.50          247.70             57.20
                April 2010                   190.50          247.70             57.20
                May 2010                     190.50          247.70             57.20
                June 2010                    190.50          247.70             57.20
                July 2010                    190.50          247.70             57.20
                August 2010                  190.50          247.70             57.20
                September 2010               190.50          247.70             57.20
                October 2010                 190.50          247.70             57.20
                November 2010                190.50          247.70             57.20
                December 2010                190.50          247.70             57.20
                January 2011                 190.50          247.70             57.20
                February 2011                190.50          247.70             57.20


1
 The calculations were extended from 12 to 39 months to determine whether the incorrect amounts were
still being deducted from the beneficiary. The extension of the review period is only for the incorrectly
calculated amounts.


                                                   E-1
            March 2011               190.50        247.70          57.20
            April 2011               190.50        247.70          57.20
            May 2011                 190.50        190.50           0.00
            June 2011                190.50        190.50           0.00
            July 2011                190.50        190.50           0.00
            August 2011              190.50        190.50           0.00
            September 2011           190.50        190.50           0.00
            October 2011             190.50        190.50           0.00
            November 2011            190.50        190.50           0.00
            December 2011            197.50        197.50           0.00
            Total                 $6,855.50    $14,705.70      $7,850.20

The benefit amount for the year was $13,711. As of December 2011, COGS deducted
$14,705.70, which resulted in a $7,850.20 underpayment to the child.

Case Number 7

The court order requested $630 per month. Therefore, we estimate the court ordered
amount at $24,570 (approximately $630 a month). The benefit amount for our review
period was $44,997. As of December 2011, COGS deducted $1,267.50 (approximately
$32.50 a month), which resulted in an underpayment to the child of $23,302.

Case Number 26

The court order requested $14 per month. The original garnishment order was
established before COGS. An amended garnishment order case was established on
August 15, 2008 but was entered as a new case resulting in a duplicate garnishment,
starting in August 2008. The benefit amount for our review period was $39,738.
Therefore, over our review period, COGS deducted $84 ($14 per month x 6 months)
when the deduction should have been $0 ($14 per month x 0 months), which resulted in
an overpayment to the child of $84. As of December 2011, the garnishment was no
longer active.

Case Number 54

The court order requested $502 per month. We found that the monthly amount being
deducted was $452. The beneficiary resides in Louisiana, which follows the State law
maximum for garnishments. Therefore, we estimate the court ordered amount at
$19,578 ($502 a month). The benefit amount for our review period was $49,308. As of
December 2011, COGS had deducted $17,628 (approximately $452 a month), which
resulted in a $1,950 underpayment to the child.

Case Number 88

The court order requested $294.30 per month. We found that the monthly amount
deducted was $217.40 for 1 month. Therefore, we estimate the court ordered amount
at $11,477.70 (approximately $294.30 a month). The benefit amount for our review


                                         E-2
period was $47,281. As of December 2011, COGS deducted
$11,400.80 (approximately $287.89 a month), which resulted in an underpayment
to the child of $76.90.

Case Number 98

Per the October 17, 1992 dissolution decree, $250 was to be paid per month for the
next 8 years from the date of the decree. Therefore, the payments should have stopped
as of October 17, 2000. According to COGS, the payment was not terminated until
January 19, 2010. The benefit amount for our review period was $16,668. Conversely,
COGS deducted $27,500 ($250 per month x 110 months) which was deducted from
October 2000 to December 2009, which resulted in a $27,500 overpayment to the child.
For our review period, we calculated the overpayment in alimony to be
$3,750 ($250.00 per month x 15 months).

Case Number 111

The court order requested $190.27 per month. We found that the monthly amount
being deducted was $133.30. Therefore, we estimate the court order amount at
$7,420.53 ($190.27 a month). The benefit amount for our review period was $39,900.
As of December 2011, COGS deducted $5,198.70 ($133.30 per month), which resulted
in a $2,221.83 underpayment to the child.

Case Number 116

The court order requested $106.50 per month. We found that the monthly amount
being deducted was $103. Therefore, we estimate the court order amount at
$4,153.50 (approximately $106.50 a month). The benefit amount for our review period
was $35,977. As of December 2011, COGS deducted $4,017 (approximately $103 a
month), which resulted in a $136.50 underpayment to the child.

Case Number 127

The court order requested $368.34 per month. The beneficiary resides in a State that
follows the Federal law maximum for garnishments. As a result, the maximum
allowable garnishment amount was $219.70, $232.70, and $241.15 per month.
Therefore, we estimate the Federal maximum amount at $9,057.75. The benefit
amount for our review period was $13,935. As of December 2011, COGS deducted
$4,368 ($112 per month), which resulted in a $4,689.75 underpayment to the child.

Case Number 141

The court order requested $6.50 per month. The original garnishment order was
established before COGS was implemented. An amended garnishment order case was
established on August 15, 2008 but was entered as a new case resulting in a duplicate
garnishment starting in August 2008. The benefit amount for our review period was



                                         E-3
$10,546. The Title II payment was terminated as of September 2009. Therefore, during
our review period, COGS deducted $97.50 ($6.50 per month x 15 months) when the
deduction should have been $71.50 ($6.50 per month x 11 months), which resulted in
an overpayment to the child of $26. The garnishment action is no longer active.

Case Number 151

The court order requested $262.50 per month. We found that $263 was being
deducted each month. Therefore, we estimate the court order amount at
$5,512.50 (approximately $262.50 a month). The benefit amount for our review period
was $57,210. Conversely, COGS deducted $8,468 (approximately $403.24 a month),
which resulted in an overpayment to the child of $2,955.50. The garnishment action
was calculated using 21- months and is no longer active.

Case Number 237

Two court orders were applicable in Fiscal Year 2009. The first court order, dated
October 16, 2008, requested $500 per month. The court order was amended on
April 15, 2009. The amendment requested $200 per month. The beneficiary resided in
a State that followed the State law maximum for garnishments of 50 percent. As a
result, we found that the maximum allowable garnishment amount was $490.50 per
month. Therefore, we estimate the State law maximum amount was $3,481 ($490.50 x
2 month + $200 x 5 months + $100 x 15 months). The benefit amount for our review
period was $34,370. As of December 2011, COGS deducted $6,623.10, which resulted
in a $3,142.10 overpayment to the child.

Case Number 248

The court order requested $201.60 per month. We found that the monthly amount
being deducted was $201. Therefore, we estimate the court order amount at
$7,862.40 ($201.60 per month). The benefit amount for our review period was $32,739.
As of December 2011, COGS deducted $7,839 (approximately $201 a month), which
resulted in an underpayment to the child of $23.40.




                                        E-4
                                                                      Appendix F

Narrative for Policy-Related Cases
Case Number 71 - Potential Duplicate Garnishments

On January 27, 2009, SSA established a garnishment action from a January 8, 2009
amended garnishment case that requested $50 per month. It appears the garnishment
order should have indicated “original” instead of “amended.” In addition, SSA
established another garnishment action on August 29, 2009 from an original
garnishment case for the same amount. Although the case numbers listed on both
garnishment orders were the same, the employees’ obligor’s Social Security number
(SSN) was used to create the second garnishment action in COGS. Because of the
Agency’s inconsistent method of identifying the case number in COGS, the potential
exists for duplicate garnishments for this case.

Case Number 87 - Potential Non-Current Garnishment

COGS is deducting $327.20 per month. SSA received two garnishment orders for the
beneficiary. The court orders are as follows.

                              Description                  Amount
                 Court Order Dated June 1, 1995             $108.33
                 Court Order Dated October 20, 1997         $216.67
                 2-Percent Administrative Fee                 $2.17
                 Subtotal                                   $327.17
                 Rounding                                       .03
                 Total                                      $327.20

In addition, SSA received a third garnishment order dated July 16, 2000 requesting
$166.11 per month plus a 2-percent processing fee. We cannot determine whether this
case is used as part of the recalculation for the monthly garnishment payment. SSA
may consider ensuring that all court order garnishments are included in COGS.

Case Number 142 - Potential Garnishment Percentage Error

Three cases are active under the same SSN. The orders were established as follows.

                        Case Number       Established Date
                       1997D0080250           July 30, 2009
                       2004D0008691           July 30, 2009
                       2006D0051095           July 30, 2009



                                        F-1
The beneficiary resides in Illinois, which follows the Federal law maximum for
garnishments. Court orders 1997D0080250 and 2004D0008691 are not in arrears;
therefore, we calculate the maximum Federal law to be 60 percent. Court order
2006D0051095 is in arrears and therefore the maximum Federal law for deduction is
65 percent. We found that COGS deducted $1,330 (approximately $665 per month)
$665 per month is more than the maximum allowable amount for the first two court
orders ($614 per month). SSA should consider whether COGS uses the maximum
percentage of the multiple orders or the percentage of each order separately for this
case.

Case Number 177 - Potential Input Error

Two cases are active under the same SSN. The orders were established as follows.

                         Case Number              Established Date
                            287705                    March 6, 2006
                            273098                December 16, 2008

On October 14, 2008, SSA amended case number 287705 monthly garnishment
amount from $55 to $143 per month. However, in reviewing the amended court orders,
we noticed that SSA modified the garnishment amount using case number 273098.
Moreover, case number 273098 was established on December 16, 2008, but the court
order was marked as amended for $143 per month. For this case, SSA should consider
contacting the issuing court for verification.

Case Numbers 207 and 208 - Potential Improper Garnishment Amount

In two cases, the beneficiaries each resided in Oregon, which follows the State law
maximum for garnishments. The garnishment orders received from the court include
withholding worksheets but it is not clear of which calculation to use. The court order
states one amount, however the withholding worksheets use another amount. SSA
should consider developing a procedure to use when it receives worksheets to calculate
the garnishment amount.

Case Number 215 - Potential Duplicate Garnishment Amount Withheld from Two States

Two court orders are active under the same SSN for two different States. The
garnishment orders, one from Alabama and one from California, are requesting
payment for the same child. Both garnishment cases are active. SSA needs to review
all court orders to determine whether it is to enforce, modify, or terminate an obligation
to pay child support. For this case, SSA should consider adding the child listed on the
garnishment order to COGS or the MBR to prevent duplicate withholdings for this case.




                                            F-2
                  Appendix G

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:   June 22, 2012                                                           Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “The Accuracy of the Garnishment of Title II
        Benefits by the Social Security Administration’s Court Ordered Garnishment System”
        (A-15-10-21063)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE ACCURACY OF THE GARNISHMENT OF TITLE II BENEFITS BY
THE SOCIAL SECURITY ADMINISTRATION’S COURT ORDERED GARNISHMENT
SYSTEM” (A-15-10-21063)

General Comment

We suggest OIG include in its report that there would be implementation and maintenance costs
associated with the collection of administrative fees. The report gives the impression that we
would have a windfall of $34.7 million over 3 years if we collected garnishment fees. In fact,
implementation and system maintenance costs would result in a significant reduction of this
amount. If Congress granted us legal authority to collect fees from processing garnishments, we
would incur costs associated with:

               •       Implementing a new electronic system to collect these fees;
               •       Drafting agreements with every State government and Federal territory to
                       identify these payments; and
               •       Creating a system of internal controls to inhibit improper payments.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Ensure staff reviews the 13 garnishments in this report totaling $17,808 in overpayments and
$32,402 in underpayments.
Response

We agree.

Recommendation 2

Determine whether the seven policy-related cases need corrective action.

Response

We agree.

Recommendation 3

Consider seeking legislative authority to collect garnishment fees to offset the cost of processing
garnishment orders.

Response

We agree.


                                               G-2
                                                                         Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager

Acknowledgments

In addition to those named above:

   Tonia Hill, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-10-21063.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
